                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: I06080023



     The Office of Investigations-Office of Inspector General (OIG) initiated an investigation due to
     the significant cost-sharing amount projected by an institution' and because it appeared that the
     institution had not properly certified its cost-sharing amounts to NSF during the award of a
     cooperative agreement.2

     The investigation did not find any evidence of fraud or improper certifications by the awardeee.
     Accordingly, this case is closed.




                                                                                                         I
                                                                                                         I
                                                                                                         t
                                                                                                          I1
                                                                                                             b


                                                                                                             I
                                                                                                             I
                                                                                                             I
